SEC.gov |  Southeast Regional Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Southeast Regional Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
SOUTHEAST REGIONAL OFFICE
Audit No. 363
Limited Audit of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and administrative internal controls of the Southeast Regional Office (SERO).  The audit procedures were limited to analyzing representations made by SERO staff, reviewing supporting documentation, and conducting some tests of transactions.  The purpose of the audit was to provide the Commission with negative assurance that the internal controls were adequate, being implemented economically and efficiently, and in compliance with Commission polices and procedures1.
BACKGROUND
The Southeast Regional Office is located in Miami Florida.  Assisted by the Atlanta District Office, it is responsible for administering Commission programs, subject to Commission oversight, in the states of Alabama, Florida, Georgia, Louisiana, Mississippi, North Carolina, Puerto Rico, South Carolina, Tennessee, and Virgin Islands.  In carrying out its responsibilities, SERO exercises a broad range of financial and administrative functions, including maintaining time and attendance records; procuring supplies and services; arranging for staff travel; maintaining an inventory of property; and recording budgeted and actual expenditures of the office.
AUDIT RESULTS
During the limited audit described above, no material weaknesses in the internal control structure involving SERO's financial and administrative functions came to our attention.  Some minor internal control weaknesses were verbally discussed with SERO management.  SERO concurred with these findings and has agreed to implement our recommendations.  We commend them for already implementing almost all of these recommendations in a timely manner.
The audit was performed in accordance with generally accepted government auditing standards from January 2003 to April 2003.
1   Negative assurance means that no material internal control weaknesses came to our attention during our limited audit.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us